No. _______
October Term, 2021
In the

Supreme Court of the United States
Mauricio Melendez,
Petitioner,
v.
Renee Baker, Warden, et al.,
Respondents.
On Petition for Writ of Certiorari to the
Nevada Supreme Court
Certificate of Service

Rene Valladares
Federal Public Defender,
District of Nevada
*C.B. Kirschner
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
CB_Kirschner@fd.org
*Counsel of Record for Petitioner

I certify that on August 5, 2021, I delivered the original and ten copies of
Petitioner Mauricio Melendez’s Petition for Writ of Certiorari and Motion to Proceed
In Forma Pauperis to a third-party commercial carrier for delivery to the Clerk
within three calendar day, pursuant to Rule 29.2.
I further certify that on August 5, 2021, I served the required parties one
copy of the forgoing Petition for Writ of Certiorari and Motion to Proceed In Forma
Pauperis by mail as addressed below, pursuant to Rule 29.3
I also certify that in accordance with Rule 29.3, I served an electronic version
of the foregoing.
Karen Mishler
Deputy District Attorney
Regional Justice Center
200 Lewis Avenue
Las Vegas, NV 89155
Aaron D. Ford
Nevada Attorney General
100 North Carson Street
Carson City, NV 89701
Dated August 5, 2021
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/ C.B. Kirschner
C.B. Kirschner
Assistant Federal Public Defender

1

